<html>
<title> - CONFIRMATION HEARING ON FEDERAL APPOINTMENTS</title>
<body><pre>[Senate Hearing 107-496]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-496

              CONFIRMATION HEARING ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2001

                               __________

                          Serial No. J-107-32

                               __________

         Printed for the use of the Committee on the Judiciary


77-881              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................     1
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     8
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     4
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     9

                               PRESENTERS

Hagel, Hon. Chuck, a U.S. Senator from the State of Nebraska 
  presenting William Jay Riley, Nominee to be U.S. Circuit Court 
  Judge for the Eighth Circuit...................................     3
Lugar, Hon. Richard G., a U.S. Senator from the State of Indiana 
  presenting Deborah J. Daniels, Nominee to be Assistant Attorney 
  General for the Office of Justice Programs.....................     1
Nelson, Hon. Ben, a U.S. Senator from the State of Nebraska 
  presenting William Jay Riley, Nominee to be U.S. Circuit Court 
  Judge for the Eighth Circuit...................................     6
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania presenting Sarah V. Hart, Nominee to be Director 
  of the National Institute of Justice...........................     5

                       STATEMENTS OF THE NOMINEES

Daniels, Deborah J., of Indiana, Nominee to be Assistant Attorney 
  General, Office of Justice Programs, Department of Justice.....    45
    Questionnaire................................................    46
Hart, Sarah V., of Pennsylvania, Nominee to be Director of the 
  National Institute of Justice..................................    98
    Questionnaire................................................   100
Riley, William Jay, of Nebraska, Nominee to be U.S. Circuit Court 
  Judge for the Eighth Circuit...................................     9
    Questionnaire................................................    11

                       SUBMISSIONS FOR THE RECORD

Bayh, Hon. Evan, a U.S. Senator from the State of Indiana, 
  statement in support of Deborah J. Daniels, Nominee to be 
  Assistant Attorney General, Office of Justice Programs, 
  Department of Justice..........................................   150
Daniels, Deborah J., Attorney, Krieg, Devault, Alexander & 
  Capehart, LLP, Indianapolis, IN, letter........................   151

 
              CONFIRMATION HEARING ON FEDERAL APPOINTMENTS

                              ----------                              


                         TUESDAY, JULY 24, 2001

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:02 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Russell 
Feingold, presiding.
    Present: Senators Feingold, Leahy, Hatch, Specter, and 
Sessions.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. The hearing will come to order, and I 
would like to welcome everyone to this Senate Judiciary 
Committee nominations hearing.
    Today we will hear from one of President Bush's nominees to 
the United States Court of Appeals, William Jay Riley, of 
Nebraska, and from two nominees for important positions at the 
Department of Justice: Deborah J. Daniels, of Indiana, to be 
Assistant Attorney General for the Office of Justice Programs; 
and Sarah V. Hart, of Pennsylvania, to be Director of the 
National Institute of Justice.
    I would like to congratulate all of you on your 
nominations, and it is an honor to have you here today.
    Before we begin the hearing, the confirmation of Mr. Riley, 
I would like to first recognize Senator Lugar, who is here to 
speak on behalf of one of the nominees, I assume Deborah 
Daniels. Is that correct? Senator, you may begin.

 PRESENTATION OF DEBORAH J. DANIELS, OF INDIANA, NOMINEE TO BE 
 ASSISTANT ATTORNEY GENERAL FOR THE OFFICE OF JUSTICE PROGRAMS 
  BY HON. RICHARD G. LUGAR, A U.S. SENATOR FROM THE STATE OF 
                            INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. It is a 
pleasure and honor to introduce Deborah Daniels to the 
Judiciary Committee as an outstanding nominee to be Assistant 
Attorney General for the Office of Justice Programs.
    I was privileged to have Debbie as a talented colleague in 
my office nearly 30 years ago when I was mayor of Indianapolis. 
Throughout her career, she has demonstrated an extraordinary 
commitment to public and community service, and she has 
achieved great success in each of her endeavors.
    Debbie is well prepared to lead the Office of Justice 
Programs. From 1988 until 1993, she served as United States 
Attorney for the Southern District of Indiana.
    She served as Vice Chair of the Attorney General's Advisory 
Committee of the United States Attorneys. In recognition of her 
aptitude in organizing efforts with state and local law 
enforcement, she earned the Attorney General's Award for 
Excellence in Law Enforcement Coordination.
    While serving as U.S. Attorney, Debbie was called upon to 
become the first Director of the Executive Office for Weed and 
Seed within the Deputy Attorney General's office. As you all 
know, the Weed and Seed program is an integral component of the 
Office of Justice Programs. Under her guidance, the Weed and 
Seed program was enormously successful in reducing violent 
crime and drug activity in high-crime neighborhoods and in 
helping revitalize those neighborhoods.
    As Director of the Executive Office, Debbie became 
accomplished in working with the Justice Department's Programs 
sub-agencies and several Cabinet agencies. For these efforts, 
she received the Attorney General's Award for Excellence in 
Management.
    Back in Indiana, Debbie implemented the Weed and Seed 
effort in Indianapolis, and the program remains a model of 
success today.
    Her experience as U.S. Attorney and with Weed and Seed led 
her to the position of Executive Director of the Greater 
Indianapolis Progress Committee. This coalition of corporate 
and not-for-profit leaders worked with the public sector to 
advance neighborhood and regional economic development and to 
enhance public safety. As Executive Director, she helped 
coordinate Coburn Place, which provides transitional housing 
for victims of violence and their children.
    In addition to her public service record, Debbie's 
community activities exemplify her commitment to justice. She 
has led efforts to provide pro bono legal services to 
neighborhood and community-based organizations and to residents 
of central-city neighborhoods in Indianapolis. She has worked 
as an advocate for those with mental illnesses and 
developmental disabilities and has helped lead the Children's 
Bureau of Indianapolis as it provides services to children and 
their families.
    Debbie has worked diligently and successfully in each of 
her positions. I am confident she will continue her exemplary 
service as Assistant Attorney General for the Office of Justice 
Programs.
    Mr. Chairman, I thank you very much for this opportunity to 
introduce an outstanding candidate, Deborah Daniels, to the 
committee.
    Senator Feingold. I thank you, Senator Lugar, very much for 
that very strong endorsement. It is good to have you here.
    [The prepared statement of Senator Lugar follows:]

 Statement of Hon. Richard G. Lugar, a U.S. Senator from the State of 
Indiana on the Nominee of Deborah J. Daniels to the U.S. Department of 
                                Justice

    I am pleased to introduce Deborah Daniels to the Judiciary 
Committee as an outstanding nominee to be Assistant Attorney General 
for the Office of Justice Programs.
    I was privileged to have Debbie as a talented colleague in my 
office nearly 30 years ago when I was Mayor of Indianapolis. Throughout 
her career she has demonstrated an extraordinary commitment to public 
and community service. She has achieved great success in each of her 
endeavors.
    Debbie is well prepared to lead the Office of Justice Programs. 
From 1988 until 1993, she served as United States Attorney for the 
Southern District of Indiana.
    Debbie served as vice chair of the Attorney General's Advisory 
Committee of United States Attorneys. In recognition of her aptitude in 
organizing efforts with state and local law enforcement, she earned the 
Attorney General's Award for Excellence in Law Enforcement 
Coordination.
    While serving as U.S. Attorney, Debbie was called upon to become 
the first Director of the Executive Office for Weed and Seed within the 
Deputy Attorney General's office. As you all know, the Weed and Seed 
program is an integral component of the Office of Justice Programs. 
Under her guidance, the Weed and Seed program was enormously successful 
in reducing violent crime and drug activity in high crime neighborhoods 
and in helping revitalize those neighborhoods.
    As Director of the Executive Office, Debbie became accomplished in 
working with the Justice Department's Programs sub-agencies and several 
Cabinet agencies. For these efforts, Debbie received the Attorney 
General's Award for Excellence in Management.
    Back in Indiana, Debbie implemented the Weed and Seed effort in 
Indianapolis, and the program remains a model of success today.
    Debbie's experience as U.S. Attorney and with Weed and Seed led her 
to the position of Executive Director of the Greater Indianapolis 
Progress Committee. This coalition of corporate and not-for-profit 
leaders worked with the public sector to advance neighborhood and 
regional economic development and to enhance public safety. As 
Executive Director, she helped create Coburn Place, which provides 
transitional housing for victims of violence and their children.
    In addition to her public service record, Debbie's community 
activities exemplify her commitment to justice. She has led efforts to 
provide pro bono legal services to neighborhood and community-based 
organizations and to residents of central-city neighborhoods in 
Indianapolis. She has worked as an advocate for those with mental 
illnesses and developmental disabilities, and she has helped lead the 
Children's Bureau of Indianapolis as it provides services to children 
and their families.
    Debbie has worked diligently and successfully in each of her 
positions, and I am confident that she will continue her exemplary 
service as Assistant Attorney General for the Office of Justice 
Programs.
    Mr. Chairman, I thank you for this opportunity to introduce Deborah 
Daniels to the Committee on the Judiciary.

    Senator Feingold. Now we will turn to our two distinguished 
Senators from Nebraska, who will be speaking on behalf of Mr. 
Riley. First, I would like to recognize Senator Chuck Hagel.

 PRESENTATION OF WILLIAM JAY RILEY, OF NEBRASKA, NOMINEE TO BE 
 U.S. CIRCUIT COURT JUDGE FOR THE EIGHT CIRCUIT BY HON. CHUCK 
        HAGEL, A U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Hagel. Mr. Chairman, thank you. I appreciate the 
committee's attention in scheduling this hearing on the 
nomination of William Jay Riley to the Eighth U.S. Circuit 
Court of Appeals.
    Mr. Chairman, I recommend Bill Riley without reservation. 
If approved by this committee and confirmed by the United 
States Senate, I know that he will be an excellent addition to 
the Eighth Circuit and will serve with distinction. He will 
bring to the bench the knowledge, experience, and temperament 
he has acquired throughout his distinguished career.
    Bill Riley received his undergraduate degree from the 
University of Nebraska in 1969 and graduated with distinction 
in 1972 from the University of Nebraska College of Law. 
Interestingly enough, Mr. Chairman, Bill began his career by 
clerking for an Eighth Circuit Court of Appeals judge, the 
Honorable Donald P. Lay. Who would have guessed that a few 
years ago--30, to be exact--that 30 years later Bill would be 
nominated to serve that same court, only this time as a judge 
on the Eighth Circuit Court of Appeals.
    Since 1973, Bill has practiced law with the firm of 
Fitzgerald, Schorr, Barmettler & Brennan of Omaha, where he is 
now chairman of the firm's litigation department. Bill has had 
a varied trial practice including business litigation, Federal 
securities law, U.S. copyright, trademark, and patent suits, 
ERISA claims, corporate environmental pollution claims, and 
various contract disputes.
    I will add for the record, Mr. Chairman, an additional 
amount of his background and qualifications and experience. In 
addition to his active trial practice, Bill also teaches trial 
practice as an adjunct professor at Creighton University School 
of Law. He is married to Norma J. Riley, who I will ask Mr. 
Riley in a moment to introduce his family, who is here with us. 
They have three children: Brian, who also is with us, Kevin, 
and Erin. And, in particular, I would like to recognize Bill's 
mother, Marian Riley. We never overlook mothers, do we, Mr. 
Chairman?
    So, with that, with the permission of the committee, Mr. 
Chairman, I would ask Mr. Riley to ask his family to stand and 
say hello.
    Mr. Riley. Mr. Chairman, this is my wife, Norma; my son, 
Brian; my mother, Marian; also two very good friends from 
Omaha, Chuck Kluver and Mary Kluver.
    Senator Feingold. We welcome all of you, and you look proud 
and you should be proud. Thank you very much for being here.
    Senator Hagel. I would like to make an additional note, Mr. 
Chairman, about Norma Riley. Norma is highly successful in her 
own regard, where she has been involved in the Omaha community 
over many years. She is currently executive director of the 
Omaha Public Library Foundation. She has also been on the board 
of trustees for the Omaha Community Playhouse, executive 
committee at the Omaha Symphony Guild, and many, many other 
good causes.
    Mr. Chairman and members of the committee, Bill Riley is 
fully prepared for the challenges that lay ahead for the Eighth 
Circuit. He possesses the integrity, the experience, the 
intellect, and temperament to be an exceptional Federal judge. 
If confirmed, Bill will be replacing retired senior Judge C. 
Arlen Beam. Judge Beam's dedication to the rule of law and 
faithfulness to the bench is an inspiration to all of us, and 
Judge Beam will be missed. We thank him for his distinguished 
service to our judicial system.
    Mr. Chairman, I recommend William Jay Riley without 
reservation to this committee. If given the opportunity, I know 
he will excel with this high responsibility as he has done with 
every responsibility he has accepted in his life.
    Thank you.
    Senator Feingold. Thank you very much, Senator Hagel.
    I note the arrival of the chairman of the full committee, 
Senator Leahy.
    Senator Leahy?

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. Just briefly, Mr. Chairman. One, I want to 
thank you for juggling everybody's time to be able to hold this 
hearing, and I would just say to Mr. Riley, when you have 
Senator Hagel and Senator Nelson on your side, you are already 
a long way towards being home. And if for no other reason, I 
can then stop them from bugging me on the floor.
    [Laughter.]
    Chairman Leahy. But Senator Hagel and Senator Nelson are 
two very good friends, and they have spoken so well of you that 
I wanted to get this as another one of the ones on the calendar 
before we recess.
    I would say to Deborah Daniels, you couldn't have a better 
mentor or better recommendation than from Dick Lugar. Senator 
Lugar is well respected on both sides of the aisle. He is a 
senior member of the U.S. Senate, and, again, his 
recommendation carries enormous weight.
    So that is all I had to say. You can tell, Mr. Chairman, 
they are moving me out of the undecided category.
    [Laughter.]
    Chairman Leahy. I would also say that with Senator Specter 
as one of the people speaking on her behalf that that certainly 
doesn't hurt either.
    What I was saying, Arlen, is that with you, Dick Lugar, 
Chuck Hagel, and Ben Nelson being those recommending a couple 
of the different nominees here, it is easy to move me out of 
the undecided category.
    Senator Feingold. Thank you, Mr. Chairman.
    Now I will turn to Senator Specter, a distinguished member 
of this committee, and also, I suspect, somebody who wants to 
speak on behalf of Sarah Hart. Senator Specter?

 PRESENTATION OF SARAH V. HART, OF PENNSYLVANIA, NOMINEE TO BE 
  DIRECTOR OF THE NATIONAL INSTITUTE OF JUSTICE BY HON. ARLEN 
     SPECTER, A U.S. SENATOR FROM THE STATE OF PENNSYLVANIA

    Senator Specter. Thank you very much, Mr. Chairman. It is 
my pleasure to introduce a very distinguished Pennsylvanian, 
Sarah Vandenbraak Hart, who has been nominated for the position 
of Director of the National Institute of Justice. Ms. Hart 
graduated with a bachelor of science degree in criminal justice 
from the University of Delaware and her J.D. degree from 
Rutgers-Camden and has had really quite a remarkable career. 
She served for 7 years in the Philadelphia District Attorney's 
office as an assistant DA, and that is a job I once held. 
People have asked me what my favorite job has been, and it is 
assistant DA, not DA or Senator, if I may be pardoned in this 
august chamber.
    She handled some very important litigation involving the 
oversight of the Philadelphia prisons, one of the landmark 
cases, and more recently, she has been chief counsel for the 
Pennsylvania Department of Corrections since 1995. Her detailed 
curriculum vitae will be made a part of the record officially, 
and I think one of the most remarkable things about Ms. Hart is 
that while she has pursued this very, very impressive 
professional career, she has raised four children, the oldest 
of whom is 12 and the youngest is--5?
    Ms. Hart. It seems like only yesterday, 12 to 22.
    Senator Specter. Twelve to 22. Well, as you can see, I 
judge more by appearance than by resume.
    [Laughter.]
    Senator Specter. Ms. Hart has her family with her today. I 
know her husband is here. Would you introduce them to the 
committee, please?
    Ms. Hart. With your permission and with the permission of 
the Chair, thank you. This is my husband of 17 years, Henry 
Hart, who also served as a prosecutor in Philadelphia's DA's 
office; our oldest daughter, Jackie Vandenbraak; my youngest 
daughter, Tessa Hart; my son, Richard Hart, who is 16; my son, 
Alexander Hart, who is 14; and also here with me today are my 
parents, Gerald and Margaret Baseden. And I am delighted for 
this, and thank you.
    Senator Specter. Well, thank you very much, Ms. Hart.
    Senator Feingold. We welcome all of you and thank you all 
for being here today.
    Senator Specter. Mr. Chairman, just one other comment. Ms. 
Hart told me that her husband worked while I was DA as a clerk 
in the office, and that gives me an opportunity at this time to 
ask him whatever happened to that last memorandum you were 
supposed to do?
    [Laughter.]
    Mr. Hart. It is in the mail, Senator.
    Senator Specter. Thank you very much, Mr. Chairman, for 
taking me at this time.
    Senator Feingold. Senator Specter is very thorough, as we 
all know.
    I want to thank Senator Nelson for his patience. I now turn 
to the junior Senator from Nebraska, and then we will turn to 
the Senators who arrived on the panel as well after that.
    Senator Nelson?

 PRESENTATION OF WILLIAM JAY RILEY, OF NEBRASKA, NOMINEE TO BE 
  U.S. CIRCUIT COURT JUDGE FOR THE EIGHTH CIRCUIT BY HON. BEN 
       NELSON, A U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Nelson. Thank you, Mr. Chairman and members of the 
committee. It is a real pleasure for me to be here with my 
colleague from Nebraska, Senator Hagel, in a very strong 
bipartisan way to appear before this committee in support of 
the nomination of William Jay Riley to the Eighth Circuit Court 
of Appeals.
    I also want to thank the committee for acting on this 
nomination quickly. I certainly believe that Mr. Riley 
exemplifies the kind of nominee that we would like to see put 
forth for these very important judgeships. He is not only a 
highly qualified person for this position, but he has earned 
broad bipartisan support and respect in Nebraska as well. And I 
believe he will be an excellent judge, and it is my pleasure to 
be able to support his nomination.
    I have known Bill Riley since our law school days at the 
University of Nebraska College of Law. Even then, early in his 
career, he displayed the intellect and the leadership qualities 
that he has carried with him throughout his professional life.
    During law school, he served as editor-in-chief of the 
Nebraska Law Review and graduated with distinction in 1972. 
Senator Hagel has also pointed out the irony of his first job 
being in the Eighth Circuit Court of Appeals as a clerk. Since 
then, he has established himself as a respected trial lawyer 
specializing in civil litigation. He began practicing at a 
prestigious law firm in Nebraska where he now serves as Chair 
of the litigation department.
    Mr. Riley is a member of the Nebraska and Omaha Bar 
Associations. He is a fellow of the Nebraska State Bar 
Foundation, and he has served as Chair of the Federal Practice 
Committee for the U.S. District Court in Nebraska.
    In addition to serving on these professional organizations, 
he has also been chosen by his peers as a leader in the legal 
community. He has served in a variety of capacities on the 
American Board of Trial Advocates, whose membership is 
determined on a peer-selection process based on participation 
in civil jury trials and upon reputation as an advocate. He was 
also selected in 1992 to be a fellow on the American College of 
Trial Lawyers. Selection for the college is made by State and 
national trial lawyers and is limited to 1 percent of the 
lawyers in the State who are deemed to be outstanding in their 
profession and who have high ethical and moral standards and 
excellent character.
    He has been listed for several years in ``Who's Who in 
American Law'' as well as in ``Best Lawyers in America'' and 
has received an AV rating from Martindale-Hubbell, which is the 
highest rating a lawyer can receive.
    In addition to these professional accomplishments, he has 
taken time to pass on his experience and legal expertise to 
aspiring young lawyers. For the past 10 years, he has served as 
an adjunct professor at Creighton University College of Law in 
Omaha teaching trial practice. He is a master and charter 
member of the Robert M. Spires Inns of Court, which is a 
program involving judges and experienced lawyers who mentor 
young trial lawyers and students.
    As State Chair of the American College of Trial Lawyers, he 
established the first Nebraska State mock trial competition 
between Nebraska's two law schools--the University of Nebraska 
College of Law and Creighton Law School. In addition, he has 
coached students and judged high school mock trial 
competitions. It is clear that his dedication to the education 
of young lawyers shows the extent of his commitment to 
fostering excellence and respect for the legal profession.
    In addition to his professional accomplishments, he has 
been actively involved in the community. He has participated 
for more than 25 years in the Boy Scouts of America, including 
serving as a Scout Master for 10 years. He has served as a 
juvenile diversion leader for young boys and girls who have 
been charged with non-felony crimes, and he has offered legal 
services at reduced rates or free of charge to financially 
disadvantaged members of the community.
    Not only does Bill Riley possess the legal intellect, 
experience, and expertise to be an excellent judge, he has also 
displayed throughout his career the highest of ethical 
standards to which our judges must be held. His qualifications, 
his reputation, and the bipartisan support that his nomination 
has generated make him an ideal candidate for the Eighth 
Circuit judgeship.
    I hope the committee will continue to act expeditiously on 
this nomination. I have a great deal of respect for Bill Riley, 
and I am honored to be here to speak on his behalf today.
    I should also point out that Norma Riley is in an 
investment club with my wife, Diane, not one of their most 
successful ventures, but we enjoy a good personal relationship. 
And from my own personal knowledge and my own personal 
experience, over 30 years-plus, I can tell you that Bill Riley 
is the kind of judge we want to have in America.
    Thank you very much.
    Senator Feingold. Let me thank both the Senators from 
Nebraska for their strong statements on behalf of the nominee 
and for their attendance.
    Senator Feingold. Now I would like to turn to our 
distinguished ranking member, Senator Hatch.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Well, I would like to thank both Senators 
from Nebraska for the excellent statements that they have made, 
and, Mr. Riley, you are very fortunate to have both of them 
supporting you as strongly as they have, and I have no doubt 
you deserve everything they have said about you. So I 
appreciate you both.
    It is both an honor and a pleasure to be here this 
afternoon with three extremely well-qualified nominees, and I 
would like to congratulate all three of you for being selected 
by President Bush to serve in these three important positions. 
All of you have distinguished yourselves with hard work and 
great intellect, and I think you will do a great service to the 
citizens of our country and will do a great service upon 
confirmation.
    As has been stated, our sole judicial nominee today is 
William Jay Riley, who has been nominated for the Eighth 
Circuit Court of Appeals. Mr. Riley graduated in 1972 from 
Nebraska Law School where he was editor-in-chief of the 
Nebraska Law Review and was Order of the Coif, very high honors 
for any law school. And after graduation, he served as a law 
clerk for the court to which he has now been nominated before 
entering private practice. Mr. Riley has been an active member 
of the legal profession and with his outstanding legal 
credentials, he will be a fine addition to the Eighth Circuit 
Court of Appeals, and we are very proud to support your 
nomination.
    Turning to our Department of Justice nominees, Deborah J. 
Daniels is President Bush's nominee to be the Assistant 
Attorney General for the Office of Justice Programs. The Office 
of Justice Programs is in charge of developing the Nation's 
capacity to prevent crime, improving the criminal and juvenile 
justice systems, increasing knowledge about crime, and, of 
course, assisting crime victims. Ms. Daniels will be a superb 
leader of OJP. She graduated with honors from Indiana 
University School of Law and has served as the U.S. Attorney 
for the Southern District of Indiana. In 1992, she became the 
first executive director of the Executive Office for Weed and 
Seed, which is part of OJP.
    Our final nominee, Sarah Hart, is a similarly outstanding 
choice to serve as Director of the National Institute of 
Justice. The NIJ is the research and development agency of the 
U.S. Department of Justice, and it is dedicated to researching 
crime control and justice issues. Sarah Hart has plenty of 
experience in this area. She spent 7 years prosecuting criminal 
cases in Philadelphia and 9 years litigating over consent 
decrees governing the management of Philadelphia prisons. 
Throughout her career, Ms. Hart has worked extensively to 
expand the rights of crime victims.
    So, again, it is a great pleasure to welcome the three of 
you to the committee. I look forward to working with Chairman 
Leahy, Chairman Feingold here, and others to make sure the 
committee and the full Senate hold timely votes on your 
nominations.
    I am happy to have Senator Sessions here, and I appreciate 
his diligence on the committee.
    Senator Feingold. Well, I thank the ranking member for his 
attendance and his statement, and I am wondering if the Senator 
from Alabama would like to make a statement. Senator Sessions?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. I was 
particularly here because of Deborah Daniels, who I served with 
as United States Attorney for a number of years. Her fellow 
United States Attorney members from around the country elected 
her Vice Chairman of the Attorney General's Advisory Committee. 
She served in that position with great skill and demonstrated 
extraordinary people skills. No one of the whole group was 
better liked than Deborah, and I am delighted to see her take 
on the position that she will be assuming.
    I think the position she will be assuming will call on her 
experience in a great way, and she will do a great job.
    Thank you.
    Senator Feingold. Thank you, Senator Sessions.
    In addition, Senator Santorum of Pennsylvania contacted us 
this morning and informed us that, while he is unable to be 
here todAy, he will submit a statement for the record on behalf 
of Ms. Hart.
    Finally, without objection, we will place in the record a 
statement on behalf of Ms. Daniels from the other Senator from 
Indiana, Senator Evan Bayh, who was also unable to attend.
    Now we will hear from Mr. Riley.
    Mr. Riley, will you please stand and raise your right hand 
to be sworn? Do you swear or affirm that the testimony you are 
about to give before this committee will be the truth, the 
whole truth, and nothing but the truth?
    Mr. Riley. I do.
    Senator Feingold. You may proceed.

STATEMENT OF WILLIAM JAY RILEY, OF NEBRASKA, NOMINEE TO BE U.S. 
           CIRCUIT COURT JUDGE FOR THE EIGHTH CIRCUIT

    Mr. Riley. Thank you, Mr. Chairman. If I may introduce not 
only the people who are here, I would like to make mention of 
my other two children who could not be here today: Erin Riley, 
my daughter, who is at the University of Nebraska Medical 
School in the physician's assistant program and is studying at 
the present time; my son, Kevin Riley, who is also working and 
unable to come; as well as my daughter-in-law, Kris Riley, and 
two grandchildren, Michael and Jacob. So thank you.
    I also want to thank both Senators Hagel and Nelson for 
their support, their kind words, and also I want to thank the 
committee for holding a prompt hearing. I know that you all 
have busy schedules, and I thank you for that.
    Thank you.
    [The biographical information of Mr. Riley follows.]

    [GRAPHIC] [TIFF OMITTED] T0212.001
    
    [GRAPHIC] [TIFF OMITTED] T0212.002
    
    [GRAPHIC] [TIFF OMITTED] T0212.003
    
    [GRAPHIC] [TIFF OMITTED] T0212.004
    
    [GRAPHIC] [TIFF OMITTED] T0212.005
    
    [GRAPHIC] [TIFF OMITTED] T0212.006
    
    [GRAPHIC] [TIFF OMITTED] T0212.007
    
    [GRAPHIC] [TIFF OMITTED] T0212.008
    
    [GRAPHIC] [TIFF OMITTED] T0212.009
    
    [GRAPHIC] [TIFF OMITTED] T0212.010
    
    [GRAPHIC] [TIFF OMITTED] T0212.011
    
    [GRAPHIC] [TIFF OMITTED] T0212.012
    
    [GRAPHIC] [TIFF OMITTED] T0212.013
    
    [GRAPHIC] [TIFF OMITTED] T0212.014
    
    [GRAPHIC] [TIFF OMITTED] T0212.015
    
    [GRAPHIC] [TIFF OMITTED] T0212.016
    
    [GRAPHIC] [TIFF OMITTED] T0212.017
    
    [GRAPHIC] [TIFF OMITTED] T0212.018
    
    [GRAPHIC] [TIFF OMITTED] T0212.019
    
    [GRAPHIC] [TIFF OMITTED] T0212.020
    
    [GRAPHIC] [TIFF OMITTED] T0212.021
    
    [GRAPHIC] [TIFF OMITTED] T0212.022
    
    [GRAPHIC] [TIFF OMITTED] T0212.023
    
    [GRAPHIC] [TIFF OMITTED] T0212.024
    
    [GRAPHIC] [TIFF OMITTED] T0212.025
    
    [GRAPHIC] [TIFF OMITTED] T0212.026
    
    [GRAPHIC] [TIFF OMITTED] T0212.027
    
    [GRAPHIC] [TIFF OMITTED] T0212.028
    
    [GRAPHIC] [TIFF OMITTED] T0212.029
    
    [GRAPHIC] [TIFF OMITTED] T0212.030
    
    Senator Feingold. All right. Any other comments you would 
like to make at this point?
    Mr. Riley. No other comments. Thank you.
    Senator Feingold. Let me begin, then, by just asking you a 
few questions, and then, Senator Sessions, if you wish to 
follow.
    You have had a very distinguished career as a lawyer in 
private practice in Omaha. I do note that virtually all of your 
work has been on the civil side. Could you discuss a little bit 
your experience with and familiarity with criminal law and 
procedure?
    Mr. Riley. As you well know, Mr. Chairman, my practice has 
been primarily in the civil area. I have done a little bit of 
criminal work over the years. I have had one State court jury 
trial, an arson case, defending the accused. I have also had a 
Federal court case under the Environmental Protection Act where 
I defended a corporation in a criminal proceeding. I have also 
handled on a pro bono court appointment over the years 
revocation of parole of a gentleman. And that, other than some 
advice of clients over the years on criminal matters, those are 
my only court appearances and trials in the criminal area.
    Senator Feingold. Let me ask you now what you think are the 
most significant matters that you have handled as a private 
lawyer.
    Mr. Riley. Well, I have been very fortunate to have some 
outstanding cases and clients to represent. I would have to say 
probably one of the most intriguing cases that I ever had was 
to represent an elderly woman who in my--my side of the case 
was her three brothers had defrauded her out of her inheritance 
from their common parents. I tried that to a jury trial. It 
raised real issues of women's rights because the issue was that 
the brothers didn't think that their sister could handle the 
business. And so it became a very challenging case that way.
    At the end, we obtained a judgment of $3.766 million 
against the three brothers. They immediately filed bankruptcy 
with their corporation, so then we ended--that was in State 
court, the original trial, and then it ended up in Federal 
court, in the bankruptcy court in Nebraska, where I learned how 
to try a case in a bankruptcy court, and handled that matter 
through there, were successful, and then the appeal in the 
State court, the Nebraska Supreme Court took away the majority 
of our judgment, leaving us--leaving her with not much left. 
And then our process after that was to--in effect pro bono, was 
to try to get her services on Medicare and so forth to take 
care of her after that.
    I have had others representing a woman who was rear-ended 
in North Omaha in a police pursuit, and I am proud about that 
for this reason: that we not only got at that time the highest 
judgment against the City of Omaha at the time, but the woman, 
who became quadriplegic from the neck down, had enough money to 
reorient her life, to have a home where she could live, and 
became active in Omaha matters, is now the president or the 
outgoing president of MADD, and is serving on the Police 
Commission in Omaha, and has a very active life because she has 
the wherewithal to live that life and to do the things that are 
quite challenging to somebody that is as disabled as she is.
    Senator Feingold. I thank you for those examples. I enjoyed 
hearing them.
    One of the traits that I am looking for--and I think most 
Senators are looking for in judges--is open-mindedness and 
fair-mindedness. I would like judges to be willing to listen to 
arguments and change their minds about an issue if the law and 
the facts warrant it.
    Could you give me an example from your legal career where 
you have changed or reversed position based on the arguments 
that you have heard in court on the information that a client 
or another lawyer has presented to you?
    Mr. Riley. Well, as an advocate, you are usually not 
changing your mind. You are restructuring your argument to 
answer the question that maybe you didn't anticipate. But you 
are correct, Mr. Chairman, that sometimes you have to turn to 
your client and say, you know, we have assessed it this way and 
we are not--that isn't what the facts show.
    I can't pick out any single case, but I can tell you that's 
happened over the years, and I've been certainly willing to see 
the need to change a position.
    Senator Feingold. How about an example in your career where 
you have had to take an unpopular stand or represented, let's 
say, an unpopular client and stood by it under pressure?
    Mr. Riley. I don't know--probably some people would say one 
of the most unpopular people to defend is a lawyer. And I 
defended a lawyer in a suit in State court in Nebraska to the 
court. At the time, every night--it took 13 days of trial, and 
every night there was a story in the paper that was very 
critical of him and very critical of what he had done. We ended 
up winning part of the case at trial. We appealed it to the 
Nebraska Supreme Court, and we--``we'' meaning he and I--ended 
up with a total victory at the end.
    But that case was really defending the rights of a lawyer 
as against the community that was lined up against him.
    Senator Feingold. Fair enough. I do have a few more 
questions, but I would now turn to Senator Sessions to see if 
he has any questions.
    Senator Sessions. Thank you, Mr. Chairman.
    I would just note that Mr. Riley was editor-in-chief of the 
Law Review at Nebraska. That is quite an accomplishment and 
probably the highest honor a graduating law student can 
achieve, is to be editor of the school's Law Review. And I 
think that is something of note.
    Clerking on the circuit with Judge Lay, quite a respected 
member of the court, and being selected to clerk on a court of 
appeals I think, after you graduate from law school, is an 
indication of the academic skill and integrity that you have 
shown during your time in law school. So I think both of those 
are indicators of great potential for your service. Your 
background as being a litigator I think will add to the bench 
also.
    You talked about the Supreme Court reversing your judgment. 
I know how heart-breaking that must have been for the lawyer 
who was going to receive a part of that, as well as your 
client. Are you willing to reverse or reduce a judgment that 
doesn't comply with the law?
    Mr. Riley. Well, having been there before, I'll tell you, I 
will look very closely before I would do something like. But I 
would certainly do that. If the facts and the law, one or the 
other or both, do not support it, I would reverse it. But I 
think a lot of deference needs to be paid to the trial court.
    Senator Sessions. Well, how much deference to the trial 
court? What if the trial court has not followed the law in a 
significant respect?
    Mr. Riley. When it comes--my understanding, if I am 
confirmed, that the--when it comes to the legal issues, that's 
something that the circuit court, the appellate court looks at 
very carefully and will re-examine. When it comes, obviously, 
as I think, Senator Sessions, you know from your experience, if 
it's a factual issue on the credibility of witnesses, who do 
you believe, that's something that the appellate court needs to 
pay deference to the trial court.
    Senator Sessions. You are familiar with the BMW case, where 
the Supreme Court held that an excessive punitive damages award 
violates the Constitution where there was no standards for the 
assessment of those damages whatsoever and where the lower 
court could not articulate a basis for the amount of the award. 
How would you feel about that?
    Mr. Riley. Senator, I would have to tell you that I am not 
familiar with the BMW case other than excerpts or discussions 
on it. I really don't--haven't analyzed it to tell you one way 
or another what I feel about it.
    Senator Sessions. I would just say this: I think a good 
litigator, a good trial lawyer, has every potential of making a 
great judge. And your academic background is just 
extraordinary. I can see why the President and the Senators 
from Nebraska support your nomination. I will support your 
nomination.
    I do also ask that you realize that you no longer are 
charging out as an advocate, but you will be a judge who will 
have to make some tough decisions to maintain the level of 
consistency in courts and verdicts throughout the system.
    Thank you, Mr. Chairman.
    Senator Feingold. I thank you, Senator.
    Let me ask just a few more questions. Mr. Riley, during 
your screening by the administration prior to your nomination, 
who did you meet with to discuss the possibility of being 
nominated?
    Mr. Riley. Are you talking about from the--not from the 
Senators, but from--
    Senator Feingold. For example, the President, the Attorney 
General, the White House Counsel.
    Mr. Riley. I met with the White House Counsel's Office, 
with Courtney Elwood and with--his name escapes me--Tim 
Flanigan. I also was interviewed by Bill Howard of the Justice 
Department, and, of course, the FBI background check that I was 
interviewed, and I can't remember the FBI agent that was there. 
And, of course, the American Bar Association.
    Senator Feingold. Do you consider yourself to have a 
judicial philosophy? And if you do, what is it?
    Mr. Riley. I'm not certain what you mean by that. Do I have 
a political agenda? No, I do not have a political agenda. I'm 
not looking to go to the Eighth Circuit, if I'm confirmed, to 
change any law, to push any political agenda.
    As a judicial philosophy, my philosophy is that an 
appellate court, having been there on the other side of the 
bar, that the appellate judges need to be very cautious and 
review the facts and the law, apply them, the applicable law to 
those facts, and not create some new ruling from that--from my 
case or whoever's case is there.
    Senator Feingold. Finally, just give me a sense of who are 
some of the judges you have appeared before as a lawyer that 
you have admired and why.
    Mr. Riley. I have appeared between a lot of--before a lot 
of judges, and I would preface it by saying I've had a lot of 
them, and I don't mean to exclude anybody. But, obviously, our 
senior Federal judges, Warren Urbom and Lyle Strom, in 
Nebraska, our trial court judges, are just outstanding. And I 
could tell you many reasons why. Our chief judge in Nebraska, 
Rich Kopf, who I've also tried cases in front of, is an 
outstanding judge.
    I have tried cases, because of my age, with some 
outstanding judges that are now retired in the State court 
system as well as the Federal court system.
    As you may know from background you have, our senior 
Federal judge in Nebraska, Lyle Strom, is my former partner and 
my mentor. I carried his briefcase for several years and 
obviously have a tremendous amount of respect for him.
    Senator Feingold. Well, I thank you and I congratulate you 
and your family. Unless Senator Sessions has further questions, 
thank you so much, Mr. Riley.
    Mr. Riley. Thank you.
    Senator Sessions. Congratulations.
    Mr. Riley. Thank you.
    Senator Feingold. Now I would like to invite our second 
panel to come forward: Ms. Daniels and Ms. Hart. We will start 
with Ms. Daniels.
    Deborah Daniels is currently a partner in the firm of Krieg 
DeVault LLP in Indianapolis, Indiana. She is a native of 
Atlanta, Georgia, and a graduate of DePauw University and 
Indiana University School of Law at Indianapolis. She was 
United States Attorney for the Southern District of Indiana 
from 1988 to 1993. She has been nominated to be Assistant 
Attorney General for the Office of Justice Programs, sometimes 
known as OJP.
    OJP was formed in the Department in 1984. Its mission is to 
provide leadership in developing the Nation's capacity to 
prevent and control crime, improve the criminal and juvenile 
justice systems, increase knowledge about crime and related 
issues, and assist crime victims. OJP has five bureaus and 
offices: the Bureau of Justice Assistance, the Bureau of 
Justice Statistics, the National Institute of Justice, the 
Office of Juvenile Justice and Delinquency Prevention, and the 
Office of Victims of Crime.
    Ms. Daniels, welcome. Congratulations. Would you please 
stand and raise your right hand to be sworn? Do you swear or 
affirm that the testimony you are about to give before this 
committee will be the truth, the whole truth, and nothing but 
the truth?
    Ms. Daniels. I do.
    Senator Feingold. You may proceed.

  STATEMENT OF DEBORAH J. DANIELS, OF INDIANA, NOMINEE TO BE 
    ASSISTANT ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS, 
                     DEPARTMENT OF JUSTICE

    Ms. Daniels. Thank you, Mr. Chairman, Senator Sessions. 
With the chairman's indulgence, I do have a brief opening 
statement to tell you a little about myself. I, of course, am 
honored and humbled to be appearing before you today. I want to 
thank the committee for convening this hearing and including me 
in the group of nominees being considered.
    I want to express my gratitude to President Bush and the 
Attorney General, Attorney General Ashcroft, for having brought 
me thus far to you and placing their confidence in me.
    I am particularly delighted that Senator Lugar was able to 
be here today, and I express my gratitude to him. I also 
appreciated Senator Hatch's comments and the very kind comments 
of Senator Sessions, my former colleague.
    I have spent a great deal of my personal life as well as my 
professional career serving my community's more vulnerable 
members. Specifically, I've concentrated my professional and my 
private volunteer efforts on assisting victims of crime, in 
particular, women and children, persons with mental illness and 
developmental disabilities, and the poor. I've used my role as 
a law enforcement professional not as an end in itself, but as 
a means to a greater good, that is, an improved quality of life 
for individuals and families.
    I am a strong believer in the principles that research 
should inform public policy and that Government should be 
accountable and a good steward of the funds entrusted to its 
care.
    I further believe that it's essential to measure outcomes 
in order to determine whether what we do is working; if it's 
working, to replicate it around the country; and if it's not 
working, to take appropriate action.
    I can think of no better opportunity to put these 
principles into practice, and in doing so to benefit society at 
large, than to serve as Assistant Attorney General for the 
Office of Justice Programs. I greatly appreciate the 
committee's consideration of me for that critical position, and 
I'd be delighted to answer any questions that you have.
    [The biographical information of Ms. Daniels follows.]
    [GRAPHIC] [TIFF OMITTED] T0212.031
    
    [GRAPHIC] [TIFF OMITTED] T0212.032
    
    [GRAPHIC] [TIFF OMITTED] T0212.033
    
    [GRAPHIC] [TIFF OMITTED] T0212.034
    
    [GRAPHIC] [TIFF OMITTED] T0212.035
    
    [GRAPHIC] [TIFF OMITTED] T0212.036
    
    [GRAPHIC] [TIFF OMITTED] T0212.037
    
    [GRAPHIC] [TIFF OMITTED] T0212.038
    
    [GRAPHIC] [TIFF OMITTED] T0212.039
    
    [GRAPHIC] [TIFF OMITTED] T0212.040
    
    [GRAPHIC] [TIFF OMITTED] T0212.041
    
    [GRAPHIC] [TIFF OMITTED] T0212.042
    
    [GRAPHIC] [TIFF OMITTED] T0212.043
    
    [GRAPHIC] [TIFF OMITTED] T0212.044
    
    [GRAPHIC] [TIFF OMITTED] T0212.045
    
    [GRAPHIC] [TIFF OMITTED] T0212.046
    
    [GRAPHIC] [TIFF OMITTED] T0212.047
    
    [GRAPHIC] [TIFF OMITTED] T0212.048
    
    [GRAPHIC] [TIFF OMITTED] T0212.049
    
    [GRAPHIC] [TIFF OMITTED] T0212.050
    
    [GRAPHIC] [TIFF OMITTED] T0212.051
    
    [GRAPHIC] [TIFF OMITTED] T0212.052
    
    [GRAPHIC] [TIFF OMITTED] T0212.053
    
    [GRAPHIC] [TIFF OMITTED] T0212.054
    
    [GRAPHIC] [TIFF OMITTED] T0212.055
    
    [GRAPHIC] [TIFF OMITTED] T0212.056
    
    [GRAPHIC] [TIFF OMITTED] T0212.057
    
    [GRAPHIC] [TIFF OMITTED] T0212.058
    
    [GRAPHIC] [TIFF OMITTED] T0212.059
    
    [GRAPHIC] [TIFF OMITTED] T0212.060
    
    [GRAPHIC] [TIFF OMITTED] T0212.061
    
    [GRAPHIC] [TIFF OMITTED] T0212.062
    
    [GRAPHIC] [TIFF OMITTED] T0212.063
    
    [GRAPHIC] [TIFF OMITTED] T0212.065
    
    [GRAPHIC] [TIFF OMITTED] T0212.067
    
    [GRAPHIC] [TIFF OMITTED] T0212.068
    
    [GRAPHIC] [TIFF OMITTED] T0212.069
    
    [GRAPHIC] [TIFF OMITTED] T0212.070
    
    [GRAPHIC] [TIFF OMITTED] T0212.071
    
    [GRAPHIC] [TIFF OMITTED] T0212.072
    
    [GRAPHIC] [TIFF OMITTED] T0212.073
    
    [GRAPHIC] [TIFF OMITTED] T0212.074
    
    [GRAPHIC] [TIFF OMITTED] T0212.075
    
    [GRAPHIC] [TIFF OMITTED] T0212.076
    
    [GRAPHIC] [TIFF OMITTED] T0212.077
    
    [GRAPHIC] [TIFF OMITTED] T0212.078
    
    [GRAPHIC] [TIFF OMITTED] T0212.079
    
    [GRAPHIC] [TIFF OMITTED] T0212.080
    
    [GRAPHIC] [TIFF OMITTED] T0212.081
    
    [GRAPHIC] [TIFF OMITTED] T0212.082
    
    [GRAPHIC] [TIFF OMITTED] T0212.084
    
    [GRAPHIC] [TIFF OMITTED] T0212.083
    
    Senator Feingold. Thank you, Ms. Daniels. We will turn to 
the questions after we have heard from Ms. Hart. She is our 
final nominee for the Office of Director of the National 
Institute of Justice, which is one of the five offices that I 
mentioned within the OJP.
    So I take it you have had an opportunity to meet your new 
boss sitting next to you?
    Ms. Hart. Yes, I have, Senator.
    Senator Feingold. NIJ's role is to provide objective, 
independent, non-partisan, evidence-based knowledge and tools 
to meet the challenges of fighting crime and dispensing 
justice, particularly at the State and local levels. The NIJ 
uses the social and physical sciences to research the impact of 
crime, develop technologies and standards for fighting and 
preventing crime, evaluate existing strategies and programs, 
and assist policymakers. NIJ often works through the panels of 
scientists, researchers, and practitioners who review 
applications and make recommendations to the Director about 
funding decisions.
    Ms. Hart is a native of Birmingham, England, and currently 
serves as chief counsel of the Pennsylvania Department of 
Corrections. She is a 1976 graduate of the University of 
Delaware and a 1979 graduate of the Rutgers-Camden School of 
Law. She worked for many years for the Philadelphia District 
Attorney's office, as Senator Specter mentioned, so it is also 
a pleasure to have you here, Ms. Hart, and if you would rise, 
stand, raise your right hand to be sworn. Do you swear or 
affirm that the testimony you are about to give before the 
committee will be the truth, the whole truth, and nothing but 
the truth?
    Ms. Hart. I do.
    Senator Feingold. You may proceed.

  STATEMENT OF SARAH V. HART, OF PENNSYLVANIA, NOMINEE TO BE 
         DIRECTOR OF THE NATIONAL INSTITUTE OF JUSTICE

    Ms. Hart. Thank you very much, Senator Feingold. With your 
permission, I would like to give a brief opening statement.
    Senator Feingold. Please.
    Ms. Hart. I would like to thank President Bush and Attorney 
General Ashcroft for their confidence in me. I am extremely 
grateful to be nominated to be the Director of the National 
Institute of Justice, and I'd also like to thank you, Senator 
Feingold, Mr. Chairman, for convening this hearing today.
    As this committee knows, the National Institute of Justice 
is greatly respected in the criminal justice community. NIJ 
earned this respect because of its integrity, objectivity, and 
quality work. If confirmed, I will be committed to ensuring 
that NIJ continues with this proud tradition.
    If confirmed, I intend to make sure that the public derives 
the greatest possible benefit from NIJ and its work. NIJ's role 
in the evaluation of Federal criminal justice programs helps 
ensure that the public gets the maximum return on tax dollars 
spent. It also promotes public safety and public confidence.
    If confirmed, I will make sure that NIJ objectively reports 
when programs work, when they don't, and whether we can do 
something to fix them.
    As a criminal justice professional, I have long been 
familiar with NIJ's work. It has promoted constructive 
improvements and encouraged innovative approaches to reducing 
crime. And much of its current efforts hold tremendous promise 
for the future. For example, if confirmed, I look forward to 
working to maximize the benefits of DNA technology. As I see 
this, DNA technology is a complete win-win situation. It helps 
solve some of our most serious crimes. It ensures reliable 
verdicts. It often leads to guilty pleas that spare our fragile 
victims the trauma of trial. And it helps ensure that repeat 
offenders, some of our most serious offenders, are 
incapacitated and unable to commit further crimes in the 
community.
    I want to work with this administration and this committee 
to improve our criminal justice system, and I hope this 
committee will do me the honor of recommending my confirmation.
    Thank you very much, Senator Feingold.
    [The biographical information of Ms. Hart follows.]
    [GRAPHIC] [TIFF OMITTED] T0212.085
    
    [GRAPHIC] [TIFF OMITTED] T0212.086
    
    [GRAPHIC] [TIFF OMITTED] T0212.087
    
    [GRAPHIC] [TIFF OMITTED] T0212.088
    
    [GRAPHIC] [TIFF OMITTED] T0212.089
    
    [GRAPHIC] [TIFF OMITTED] T0212.090
    
    [GRAPHIC] [TIFF OMITTED] T0212.091
    
    [GRAPHIC] [TIFF OMITTED] T0212.092
    
    [GRAPHIC] [TIFF OMITTED] T0212.093
    
    [GRAPHIC] [TIFF OMITTED] T0212.094
    
    [GRAPHIC] [TIFF OMITTED] T0212.095
    
    [GRAPHIC] [TIFF OMITTED] T0212.096
    
    [GRAPHIC] [TIFF OMITTED] T0212.097
    
    [GRAPHIC] [TIFF OMITTED] T0212.098
    
    [GRAPHIC] [TIFF OMITTED] T0212.099
    
    [GRAPHIC] [TIFF OMITTED] T0212.100
    
    [GRAPHIC] [TIFF OMITTED] T0212.101
    
    [GRAPHIC] [TIFF OMITTED] T0212.102
    
    [GRAPHIC] [TIFF OMITTED] T0212.103
    
    [GRAPHIC] [TIFF OMITTED] T0212.104
    
    [GRAPHIC] [TIFF OMITTED] T0212.105
    
    [GRAPHIC] [TIFF OMITTED] T0212.106
    
    [GRAPHIC] [TIFF OMITTED] T0212.107
    
    [GRAPHIC] [TIFF OMITTED] T0212.108
    
    [GRAPHIC] [TIFF OMITTED] T0212.109
    
    [GRAPHIC] [TIFF OMITTED] T0212.110
    
    [GRAPHIC] [TIFF OMITTED] T0212.111
    
    [GRAPHIC] [TIFF OMITTED] T0212.112
    
    [GRAPHIC] [TIFF OMITTED] T0212.113
    
    [GRAPHIC] [TIFF OMITTED] T0212.114
    
    [GRAPHIC] [TIFF OMITTED] T0212.115
    
    [GRAPHIC] [TIFF OMITTED] T0212.116
    
    [GRAPHIC] [TIFF OMITTED] T0212.117
    
    [GRAPHIC] [TIFF OMITTED] T0212.118
    
    [GRAPHIC] [TIFF OMITTED] T0212.119
    
    [GRAPHIC] [TIFF OMITTED] T0212.120
    
    [GRAPHIC] [TIFF OMITTED] T0212.121
    
    [GRAPHIC] [TIFF OMITTED] T0212.122
    
    [GRAPHIC] [TIFF OMITTED] T0212.123
    
    [GRAPHIC] [TIFF OMITTED] T0212.124
    
    Senator Feingold. I thank you as well, Ms. Hart. Normally I 
would proceed with the questions now, but I know that Senator 
Sessions has an important engagement coming up shortly, so I 
would ask that he begin the questioning of the two.
    Senator Sessions. Thank you. Thank you, Mr. Chairman, and 
thank you for having these hearings. We can see, I think, from 
both of these nominees just how important their positions are, 
and it is great that they will be able to be on board soon. We 
need to be doing, in my view, a better job of moving 
nominations, but I think at least we are getting forward here 
on these two. And each of you have important staffs and 
important roles to play.
    Debbie, I was just looking at your background. Of course, 
you have been a Federal prosecutor for quite a number of years 
and were so successful in that, but your civic activities 
indicate, as you said, a tremendous interest in solving the 
problems, as some say, the root cause of crime, whatever, 
however we want to say it, such as the United Way of Central 
Indian, a board member, the Indiana Mental Health Memorial 
Foundation, the Children's Bureau of Indianapolis, the 
Neighborhood Christian Legal Clinic; Noble, Inc., that 
advocates for the developmentally disabled; the Mental Health 
Association of Indiana, the Greater Indianapolis Progress 
Committee, Community Organizations Legal Assistance Program, 
Safe Haven Foundation Advisory Board, providing relief services 
for victims of domestic violence; the Julian Center Advisory 
Board, providing services to domestic violence victims; the 
American Health Lawyers Association; and the Indianapolis/
Marion County Coalition for Human Services,. and the Marion 
County Child Protection Team, all of which you have been a 
board member or leader in those organizations.
    I think that goes well with the Office of Justice Programs, 
which is a tremendous bureaucracy or governmental agency. We 
have gone in the last 8 years from about a $600,000 budget to a 
$4 billion budget. That is a tremendous increase, and we need 
to ensure that every dollar that is spent is furthering our 
ability to protect innocent victims and to drive down crime in 
an effective and logical way.
    First, let me ask you, are you willing to make some tough 
decisions to make sure that the agency utilizes all those 
dollars well?
    Ms. Daniels. Thank you, Senator Sessions, for the question. 
I have been asked that sort of question on previous occasions, 
for example, when I was to become U.S. Attorney, in fact, 
possibly because of my stature. Some might wonder about the 
degree of my resolve, but I think, as you may know, I have 
demonstrated that resolve time and time again.
    I think it is essential that--first, we have a wonderful 
opportunity here to do a great deal of good in this country, 
and the Office of Justice Programs has a lengthy tradition of 
doing exactly that. You are right that the size of the 
organization, both in terms of personnel and budget, has grown 
tremendously as a result of crime legislation in the 1990s. I 
see that as an exciting opportunity as well and a welcome 
challenge.
    We need to make sure, as I indicated in my opening 
comments, that we're doing everything we can to be good 
stewards of the taxpayers' dollars, and to me that means a 
number of things, including, as you indicated, maximizing the 
number of dollars that are getting out to actually serve people 
in the communities. So we need to minimize our bureaucracy as 
we do that, and that would, I'd consider, be part of my charge.
    Senator Sessions. Your predecessor, President Clinton's 
nominee, expressed some strong convictions that some 
reorganization and efficiencies could be achieved in the 
organization. Mr. Chairman, I was chairman of the subcommittee 
at that time. We did not achieve that. It is not that any group 
would have their mission diminished, but after a period of 
years, you really have to make sure that the system is working 
effectively to deliver on the goals that it has. And the goal 
is not to further a bureaucracy, but the goal is to serve 
people who are victims of crimes and help people who have 
involved themselves in crime to get out of crime and clean up 
their lives.
    So I think you have great skill in that, and I can't think 
of a better person to do it. But it will take some of that 
strength that you mentioned because anytime there is a little 
change, people will resist. I would just say to you, if you 
propose a good program for reform, I would be supportive of it, 
and I think others will, too.
    I will ask one more question before I run. You were chosen 
to head the Weed and Seed program, which I personally spent 
many hours on as United States Attorney, and I know you did. Do 
you think that has some potential for expansion? And to what 
extent does your office have supervision of that?
    Ms. Daniels. Well, Senator, as you know, the Weed and Seed 
office, which was originally in the Deputy's office, has been 
for some years within the Office of Justice Programs as a 
program office. As you might expect, I do think it has 
tremendous potential, hopefully not just for provincial reasons 
because of my prior involvement, but because it provides a 
process for neighborhood residents literally to take back the 
reins of their destiny as opposed to having Government and 
criminals and everyone else acting upon them.
    Weed and Seed has provided people with an opportunity to 
actually take leadership. It has been a wonderful experience in 
Indianapolis, to use my own back yard as an example, in which 
people who had not previously been involved in their 
neighborhood leadership bubbled to the top out of nowhere and 
suddenly they're the leaders in the entire community now. And 
they're speaking around the country, and they're teaching other 
people their formula for success.
    So I think it has great potential for that reason. I also 
think that it has great potential, if approached properly, to 
cut across agency lines as well. There are a number of programs 
in other agencies besides the Justice Department which perform 
similar tasks to some of the things that the Justice Department 
does, drug elimination grants at HUD and a lot of programs at 
HHS. And there's a great opportunity to maximize Government 
resources through working with these other agencies as well.
    Senator Sessions. Well said, and I spoke to a Weed and Seed 
national group a couple years ago, and I know that the Clinton 
administration found that it did work. And I think it has 
potential for further expansion.
    You were involved in the very beginning and the spreading 
of it, and I think we can do a better job. In our community in 
Mobile, every time I feel discouraged about public service, I 
ride through the area that was designated Weed and Seed and see 
the park, the new school, the safe streets, the clean streets, 
compared to really the zone it was before that, and how, as you 
said, we had a town meeting and several hundred or more people 
came, and they just talked so passionately about what that 
neighborhood had been 10, 15 years before. And they took charge 
of it, and the Federal Government, utilizing all the agencies 
that it already has out there in a coordinated way, along with 
the city and the county and the local police departments, 
really helped change the quality of life for an awful lot of 
people. It was just a thrill. I know that you will take a lead 
on that.
    Ms. Hart, let me just mention to you that maintaining the 
integrity and quality of NIJ research is critical. Fred 
Thompson, who before me chaired the Juvenile Justice Committee, 
said he wasn't sure the Federal Government's role should be 
anything other than doing good research and providing the best 
information possible to our local communities on so many issues 
that we can't run from Washington but that are being run from 
the States and counties. And I agree with that. At least, I 
agree that that is a primary responsibility for us. The good 
information that is provided can help counties, cities judges, 
police, prosecutors, and sheriffs who are trying to do 
something about their community to fight crime, it can help 
them make good information.
    I believe NIJ's research is high quality, meets the best 
academic standards, and if studied hard, is very valuable to 
decisionmakers. I think perhaps it could be more practical, 
could be geared more directly to a specific problem that you 
know that is being considered by sheriffs, DAs, and judges. It 
would help them in a practical way.
    I think there are some gaps, Ms. Hart, with regard to 
statistics and evaluations. I believe in the drug court system, 
but we found that OJP had not completed effective peer-reviewed 
scientific evaluations of drug courts to find out what it is 
that works, what it is that does not work, what kind of drugs 
courts are most effective, because they are spreading all over 
the country. If we could have the best information possible, 
then these communities could make fewer mistakes.
    So I think that is the kind of thing we are talking about. 
Your decisions on research can impact so positively around the 
entire country in ways that go beyond even Federal dollars that 
are being spent.
    Thank you, Mr. Chairman, and I am sorry to have to run.
    Senator Feingold. Thank you for your attendance and 
involvement, Senator Sessions, and now I will ask some 
questions of Ms. Daniels.
    Ms. Daniels, as Assistant Attorney General for the Office 
of Justice Programs, you will be responsible for the management 
and oversight of an organization that seeks to aid in the 
prevention and control of crime. As you are aware, drug-related 
crime comprises a significant part of all crime. An increasing 
number of conservatives, including my colleague, Senator Hatch, 
and DEA Administrator Nominee Asa Hutchinson, have indicated 
that they are committed to a balanced approach to the fight 
against drugs, which includes interdiction, prevention, 
education, and treatment.
    OJP already incorporates this philosophy in some of its 
programs, such as the drug courts program and the Office of 
Juvenile Justice and Delinquency Prevention's drug abuse 
prevention program.
    Now, you have expressed in the past strong support for 
rigorous prosecution and also mandatory minimum sentences for 
drug offenders. In an article in the Atlantic Monthly in 
September 1994, you were quoted as saying that, despite prison 
overcrowding, life sentences may be appropriate even where 
``only marijuana'' is involved because drug abuse is a serious 
problem.
    Do you agree that a comprehensive approach to combating 
drug abuse that includes prevention, treatment, and enforcement 
is needed?
    Ms. Daniels. Thank you for the question, Senator Feingold. 
I have spent, as I indicated, a number of years working with 
law enforcement as more of a means to a greater good. And when 
I said that, what I meant was that what we are working toward 
is a better place for people to live. In fact, back when I was 
a U.S. Attorney, I was in contact with Professor Mark Kleiman, 
who I think is kind of the father of drug courts, in the hope 
of developing drug courts in Indianapolis. Over the years, we 
actually have been able to do that, and I'm very pleased that 
we have.
    I did jot down and make a note of Senator Sessions' comment 
that we need to make sure that we're evaluating the success of 
those efforts. But I strongly believe that we need to help 
people who have a problem to resolve that problem and become 
productive members of society. In the same way, I'm very 
interested in the prisoner re-entry program that is being 
funded by the Office of Justice Programs Correction Office. I 
have read about that. I know that there is a solicitation out 
now. I think it is essential that, while we take firm action in 
the law enforcement side, that we also provide treatment for 
people who have a problem, that when people are coming out of 
prison they have a means of re-entering the system in a 
productive way as opposed to the traditional $75 and a bus 
ticket that tends to lead them right back into the problems 
they faced when they got there.
    So, yes, sir, I do agree with you on that.
    Senator Feingold. I appreciate that answer, and I am 
wondering if we could just clarify whether you believe juvenile 
justice prevention efforts and alternatives to incarceration 
like the drug courts program are actually priorities for the 
OJP and if you could give me a sense of what relative weight 
you would give to the various components of the comprehensive 
approach.
    Ms. Daniels. Senator, I have followed with interest the 
work of this committee with regard to juvenile justice over the 
years, in fact, as well as, as you indicated, a growing perhaps 
realization on the part of many that we may not have done 
enough in the rehabilitation area in some prior years. And I'm 
gratified to see that as well for the reasons I stated.
    I've done a lot of work with abused children, as you can 
tell from some of the things in my background materials, and I 
know as well as anyone, I think, that the same children may 
enter the door of the juvenile system as children in need of 
services one day and may enter that door as delinquents another 
day. And I have actually been engaged in collaborating on 
research that, while we all thought there was a cycle of 
violence and we all thought that child abuse was a risk factor 
for delinquency, future violence or other criminal activity, in 
fact, this research showed that that was actually true. And so 
our instincts were correct in that case.
    I am very committed to an approach to juvenile justice that 
involves--while it should involve an understanding on the part 
of young people who I think need this kind of understanding 
that there are consequences for their acts, at the same time 
one of the most important things I think we can do for youth 
who are at risk of criminal activity is mentoring and some of 
these other activities that I know that OJP and the OJJDP 
portion of that office are engaged in.
    I am eager, if confirmed, to get more involved in learning 
about the JUMP program, seeing how effective that is, what else 
we can do in those kinds of areas.
    Senator Feingold. Thank you.
    Switching to another topic, last week Senator Murray of 
Washington and I were joined by a number of other Senators in 
sending a letter to the Attorney General, Attorney General 
Ashcroft, describing the critical need for support for tribal 
law enforcement in justice programs and inviting him to visit a 
reservation.
    You probably have not had a chance to see this letter, but 
as the office you will hold oversees a number of programs 
presently used by tribal governments and since you are 
listening to a Senator who has 11 federally recognized tribes 
in my State, I would like to just ask you a couple of 
questions.
    Have you ever traveled to reservations and viewed the 
status of law enforcement? And if so, which ones have you 
visited? And have any of them been in the upper Midwest?
    Ms. Daniels. Senator, with regard to tribal matters, I 
actually had quite a bit of exposure to the issues related to 
those matters while a U.S. Attorney because, as Vice Chair of 
the Attorney General's Advisory Committee, I was the liaison to 
the subcommittee which dealt with Indian affairs, as they 
called it. And I traveled to South Dakota for that purpose on 
one occasion. I had a lot of meetings with the folks from the 
upper Midwest, from the Dakotas, from Oklahoma, from Arizona, 
to talk about the differing kinds of issues that arise. In some 
cases, there are reservations where there is Federal 
jurisdiction, and then in some cases--I distinctly remember 
this being in Oklahoma--there is not necessarily a reservation, 
but actually Indian lands that were identified at different 
times. And it becomes very difficult to determine 
jurisdictional issues.
    I have not visited any of the specific reservations you 
speak of in the upper Midwest, but I recognize that to be an 
issue that perhaps over the years did not enjoy as much 
attention as it needs to. And I'd be happy to work with you and 
other members of the committee with regard to that matter.
    Senator Feingold. Would you support and encourage the 
Attorney General on a visit to Indian country?
    Ms. Daniels. I would love to have an invitation myself and 
would be happy to share with the Attorney General any 
information that I developed and certainly would be happy to 
talk to you about that further.
    Senator Feingold. I believe the question was whether you 
would encourage the Attorney General himself to do this.
    Ms. Daniels. I see no reason why I wouldn't be perfectly 
happy to encourage the Attorney General to pay attention to 
these particular issues. I don't think it will require any 
convincing on my part. I think he understands that those are 
issues of concern as well. I have no particular control over 
his schedule, so I am not sure that I would be able to assure 
you of a visit by someone other than myself.
    Senator Feingold. I am just asking for encouragement.
    A program that I and many of my colleagues have long 
supported is the Boys and Girls Clubs of America. Over the 
years, many of us have worked in partnership with the Office of 
Justice Programs to ensure the expansion of the Boys and Girls 
Clubs in rural and inner-city Native American and suburban 
areas. In fact, over the past 8 years, I think that this 
partnership has resulted in over 1,000 new clubs being opened 
across America.
    Have you had any direct experience with the Boys and Girls 
Club? And give us your opinion of this program.
    Ms. Daniels. Thank you, Senator. I have over the years, in 
fact, particularly with regard to my work with the Weed and 
Seed program, but also just in my private capacity, had fairly 
ample exposure to the work of the Boys and Girls Clubs. I think 
that in my back yard, the Boys and Girls Clubs have done a 
great job, and they have contributed to a broader approach to 
some of the things that we talked about a few minutes ago with 
regard to keeping juveniles on a path away from delinquent 
activity and toward productive activity. And so I strongly 
believe that the Boys and Girls Clubs, as well as other similar 
organizations, are important contributors to the opportunities 
for young people around the country.
    Senator Feingold. I am glad to hear that because I was 
troubled to see that initially the administration sought to cut 
funding for this program in their first budget submission. I am 
told that the Attorney General himself argued against this 
recommended budget cut, and I am wondering what your position 
on cutting funds is with regard to the Boys and Girls Clubs.
    Ms. Daniels. My position, Senator, is that Government needs 
to do everything it can to serve the citizens of the country in 
a way that is most going to benefit them. We also need to 
measure results of the programs we are funding. Senator 
Sessions made reference to drug courts. That is only one of 
many areas.
    I firmly believe that any program that proves it is working 
should be encouraged through funding, should be replicated 
around the country, and that is my commitment to you.
    Senator Feingold. And it sounds to me from your previous 
remarks that Boys and Girls Clubs would be in that category. Is 
that fair to say?
    Ms. Daniels. They have ever capability of being in that 
category.
    Senator Feingold. Okay. I am not going to take that as a 
yes, but I will take it for what it is. Thank you very much for 
your remarks and your answers, and we look forward to moving 
your nomination forward.
    Ms. Daniels. Thank you.
    Senator Feingold. Now I would like to turn to Ms. Hart. The 
National Institute of Justice, as we have said, is the research 
and development arm of the Justice Department. Its mission is 
to prevent and reduce crime, improve law enforcement of the 
administrative justice, and promote public safety. As I 
understand it, the NIJ is the only Federal agency solely 
dedicated to researching crime control and justice issues. 
According to the NIJ Web site, the NIJ provides objective, 
independent, non-partisan, evidence-based knowledge and tools 
to meet the challenges of crime and justice, particularly at 
the State and local levels.
    You have had a distinguished career not as a social 
scientist or in research but in the practice of law, first for 
the Philadelphia District Attorney's office and later as 
counsel for the Pennsylvania Department of Corrections. The 
Federal law creating the NIJ requires that the Director have 
justice research experience, but it appears that you do not 
have such experience.
    Could you just tell the committee how your legal experience 
has prepared you to undertake the responsibilities of the NIJ 
Director?
    Ms. Hart. Thank you very much, Senator Feingold, for that 
question. The one thing that I learned very quickly as a 
lawyer, both as a prosecutor and with the State, is that when 
you are making criminal justice policy or recommending criminal 
justice policy, you need to know the facts, and that research 
and correct information needs to inform public policy.
    During the course of my career, I have worked repeatedly on 
projects that have involved the use of research. I am one of 
these people who actually reads NIJ reports, keeps the source 
book from BJS in my house, and relies on them heavily in making 
recommendations.
    For example, when I worked as a prosecutor, Mayor Rendell 
appointed me to be on an Alternatives to Incarceration Task 
Force. The idea was to come up with ways to help reduce the 
prison population in a manner that was safe for the members of 
the community.
    We worked with two nationally respected experts, John 
Goldkamp and Kay Harris, who often worked with various agencies 
through OJP. They did an extensive analysis of the various bail 
release projects and were able to make recommendations about 
how we in Philadelphia could structure our bail release program 
in a way that not only maximized the public safety interests 
but also helped reduce the prison population, given that 
Philadelphia was financially strapped and did not have endless 
money to keep building prisons. It was, frankly, in my view, 
the only responsible way to go about making this sort of 
policy.
    So I am a firm believer in the importance of research, the 
integrity of research, and that you need to listen to the 
answers that it gives you, whether you like them or you don't. 
You need to listen to them and act accordingly. You owe the 
public that.
    Senator Feingold. I thank you for that answer, and you have 
just been talking about the importance of the independence of 
the NIJ. I believe that independence includes independence from 
the policymaking goals of the Justice Department. What would 
you do if the research conclusions were not to the liking of 
your superiors in the Department or were at odds with the 
policy positions taken by the Department?
    Ms. Hart. The bottom line, to me, with that is that you 
publish the research. I don't expect that anybody would ask me 
not to. Everything I know from the Attorney General in this 
administration is that they respect the need for objective, 
reliable research and they support it.
    Senator Feingold. Well, that is great and I appreciate what 
you are saying, because I have a very strong interest in one 
NIJ study that is already underway or at least the solicitation 
for the project is underway. And so I want to emphasize, as you 
have already indicated, the need for objectivity and the need 
for it at all stages of the process for conducting research, 
drafting solicitations, reviewing and awarding the research 
proposals, reviewing the results of the research, and 
publishing the final product.
    Let me make this more concrete by asking you some questions 
about the study that I am following very closely. Just last 
Friday, the NIJ released a solicitation for research into the 
investigation and prosecution of homicide, examining the 
Federal death penalty system. I realize that you probably have 
not had a lot of input into this solicitation because you have 
not yet been confirmed. But I do think it is important to 
review some concerns as this is a study that you will oversee 
once you are confirmed. In fact, I held my first hearing as 
chairman of the Constitution Subcommittee on the subject of 
this study just a few weeks ago.
    As you may know, after the release of the DOJ September 
2000 report, Attorney General Reno expressed her concern about 
glaring racial or ethnic and geographic disparities in the 
Federal death penalty system. She said, ``An even broader 
analysis must, therefore, be undertaken to determine if bias 
does, in fact, play any role in the Federal death penalty 
system.'' And then she directed the NIJ to conduct such an in-
depth study.
    During Attorney General Ashcroft's confirmation hearing, I 
directly asked him whether he would support the NIJ study of 
racial and geographic disparities. He answered unequivocally 
yes. The Justice Department, however, then released a report in 
early June with additional data about Federal capital cases and 
concluded, without the in-depth analysis ordered by Reno and 
agreed to by Attorney General Ashcroft, that racial bias does 
not exist.
    Then on June 13th, I held the hearing that I referred to. 
It was a hearing on the issue and called on the Justice 
Department to recommit to the in-depth study initiated by 
Attorney General Reno, and at that hearing, Deputy Attorney 
General Thompson said that the Attorney General had ordered the 
NIJ to conduct a study and that the primary purpose of the 
study is the same as that which was contemplated by the Clinton 
administration.
    Yet I find on page 3 of the solicitation which we just 
reviewed, the NIJ states that the June supplemental report 
``concluded that racial and ethnic proportions found in the 
pool of potential Federal capital cases and differences among 
the racial and ethnic proportions in different districts 
resulted from non-invidious causes.''
    So the solicitation repeats the statement from the June 
report but does not comment on it. In fact, in the discussion 
of issues to be researched and criteria for deciding on 
research proposals, the solicitation does not, in my view, 
reiterate the explicit purpose of the study as outlined by 
Attorney General Reno whether bias does, in fact, play any role 
in the Federal death penalty system.
    So I am concerned about by the way the NIJ appears to have 
now framed the study, and I hope this does not mean that the 
NIJ has accepted the June report's premature conclusion that 
racial bias does not exist in the Federal system. I hope this 
does not mean that the focus of the NIJ study has now again 
changed since Attorney General Reno first directed the NIJ to 
do the study.
    Let me ask you a few follow-up questions about that. Do you 
accept Attorney General Ashcroft's conclusion in his June 
supplemental report that racial bias does not exist in the 
Federal death penalty system and believe that the NIJ study 
should not address this issue?
    Ms. Hart. Senator Feingold, although I have--I am familiar 
with the reports, I have reviewed them, I have not reviewed 
them in depth, nor have I reviewed the background research for 
them. But my understanding is based on the information that was 
contained in those reports that they were fully supported and 
they were consistent with Attorney General Reno's view of how 
the death penalty was being applied or implemented in the 
Federal system.
    Both of them have--both Attorney General Reno and Attorney 
General Ashcroft recognized that there were further issues 
still to be reviewed. Obviously, the NIJ study is going 
forward. It is a comprehensive analysis, and although I have 
had no input whatsoever into the formation of this 
solicitation, out of deference to the Senate and its 
confirmation process, this is a matter of extreme urgency to 
the Department, as I understand it, and to me personally. And I 
can tell you that as a prosecutor, as a public servant, and as 
someone who has spent their life working in the criminal 
justice field, that there is nothing more important than for us 
to be administering justice fairly. And I intend to make sure 
that this solicitation goes forward, that it is objective, and 
that it answers the questions that need to be answered and that 
we can answer.
    Senator Feingold. Well, I appreciate your specific remarks 
and the spirit of those remarks. And so I would ask you, do you 
agree that the issue, whether bias exists, is the focus of the 
NIJ study?
    Ms. Hart. I think the study, the solicitation speaks for 
itself, and it specifically talks about looking into issues 
such as ethnic and racial disparities and geographic 
disparities. So it obviously involves a number of issues. It's 
a complex undertaking. But it's--those are the areas that 
appear to be addressed by the solicitation.
    Senator Feingold. So would you agree that if a research 
proposal is submitted that includes a review of the question of 
whether bias exists, that that proposal would be entirely 
proper and within the scope of the research contemplated by the 
NIJ?
    Ms. Hart. Senator, as you know, the NIJ has a very, very 
well-tested means of evaluating proposals and whether they 
comply with the solicitation requests. It also has an external 
peer review process for analyzing those proposals. I think it 
would be premature for me to in any way try to make opinions 
about this. I think that this process of using external peer 
review, relying on the staff of NIJ, who are research 
professionals, and relying on their recommendations is the way 
that this needs to be reviewed. And I intend to follow that 
process objectively and fairly.
    Senator Feingold. I am not suggesting that you would tell 
me that you would accept such a proposal or that is the one 
that should be chosen. I am just--as a person that is trying to 
do oversight on this issue and this study, it seems to me that 
if a proposal is about the question of whether bias exists, 
that it certainly would not be disqualified from being reviewed 
as a possible contender.
    Ms. Hart. Senator, I think that looking at this 
solicitation, I was particularly impressed by the lengths to 
which the solicitation discusses the peer-review process, this 
external process, and also requires that persons who were 
soliciting--or responding to the solicitation make very frank 
disclosures about their viewpoints or past history both for or 
against the death penalty. I think that a lot of thought has 
obviously gone into this in order to ensure that the process is 
fair and that we get the best answers that we can.
    I think that looking at this, it requires looking at the 
entire proposal, not just simply what's one line and what one 
word is used, whether one wants to call it bias or disparities 
or whatever. I think obviously looking at the entire proposal 
and seeing if it fits what the solicitation has asked for and 
relying on the external review and the experts at NIJ will 
allow for a fair process and answer the questions that need to 
be answered.
    Senator Feingold. Well, I understand that. Let me just 
comment in response, before I ask you one more question, that 
given what you have said about Attorney General Reno's study 
and your feeling that the other comments made by Attorney 
General Ashcroft and others were consistent with that, I can 
tell you this: If what comes out of this is not basically about 
the issues of racial and geographic disparities, it has nothing 
to do with the original Reno proposal was, and I am going to 
meticulously watch to make sure that what comes out of this is 
consistent with the very core purpose that started this whole 
thing.
    Ms. Hart. I'd welcome that, Senator Feingold. If confirmed, 
I welcome having--working with this committee on issues, 
obviously. And it's clear. Attorney General Ashcroft has 
committed to looking at the question of racial and ethnic and 
geographical disparities. That's what the solicitation--the 
language that is used in it, and that's what will certainly be 
looked at.
    Senator Feingold. Well, that just leads to my final 
question. What would you do if the research conducted by the 
outside experts concluded that racial bias exists, a conclusion 
that is clearly at odds with the conclusion of the June 
supplemental report? Would this conclusion dissuade you from 
publishing the results of this study?
    Ms. Hart. Obviously there is a normal review process once a 
draft comes in through the--all of these draft research reports 
are subject to rigorous analysis and review by experts and 
peers. And that normal process is applied to any solicitation 
and research that NIJ does.
    I expect that process to proceed with this case, to proceed 
fairly and objectively, and to make sure that any findings or 
conclusions are amply supported by the evidence. I think that 
we owe the public a rigorous, objective, reliable report. This 
is an important issue to the American public, and we need to 
make sure that it is correct.
    Senator Feingold. But assuming all those tests are met--
    Ms. Hart. Assuming all those--
    Senator Feingold. --the conclusion, of course, that the 
racial bias exists would not dissuade you from publishing the 
results of the study. Is that fair?
    Ms. Hart. Senator, if a study has bad news to give to us or 
the American people about how we administer our criminal 
justice system, whether there are questions of racial and 
ethnic bias, those are important things that we need to know, 
and we should not shy away from them. And I would not shy away 
from them.
    Senator Feingold. I appreciate that answer. I recognize 
that you were not involved in this process. This is prospective 
with regard to you. But I do have to reiterate on the record 
that if this NIJ study does not deal with the issue of racial 
and geographic bias in the death penalty, it would be in 
violation of the specific commitments made under oath by 
Attorney General Ashcroft and the commitments made to me 
personally by Deputy Attorney General Thompson in front of this 
committee. And I certainly take seriously your commitment to 
the objectivity in the role of your agency, and I expect you 
will do a very good job at it.
    I want to thank both of you very much. I expect that these 
nominations will be expedited and that you will be in your 
positions shortly, and I look forward to working with you.
    The hearing is concluded.
    [Whereupon, at 3:25 p.m., the committee was adjourned.]
    [Submissions for the record follow.]

                       SUBMISSIONS FOR THE RECORD

 Statement of Hon. Evan Bayh, a U.S. Senator from the State of Indiana 
   on the Nomination of Deborah J. Daniels to be Assistant Attorney 
   General for the Office of Justice Programs, Department of Justice

    Mr. Chairman, unfortunately due to prior commitments, I cannot be 
with you today to introduce this fine Hoosier, Deborah Daniels to the 
Judiciary Committee. However, I would like to take this opportunity to 
congratulate Ms. Daniels on her nomination to be Assistant Attorney 
General for the Department of Justice.
    Ms. Daniels has dedicated her life to serving the people of 
Indiana. She started her career working as an assistant to the senior 
Senator from Indiana while he was Mayor of Indianapolis. After earning 
her law degree, she worked as a prosecutor for Marion County and then 
as U.S. attorney for the Southern District of Indiana. In addition to 
her dedication to the criminal justice system, Ms. Daniels has donated 
her time and service to many community organizations, including the 
United Way, the Community Organizations Legal Assistance Program, the 
Greater Indianapolis Progress Committee, and the Children's Bureau of 
Indianapolis.
    Ms. Daniels is an outstanding Hoosier. I am sure will serve the 
United States as ably as she has served Indiana. I urge the Committee 
to favorably send this nomination to the full Senate for confirmation. 
Thank you.

                                <F-dash>

                    KRIEG DEVAULT ALEXANDER & CAPEHART, LLP
                           Indianapolis, Indiana 46204-2079
                                                    August 30, 2001

The Hon. Charles E. Schumer
United States Senate
Washington, DC 20510

        Re: Question Regarding HUD Gun Buy-Back Program

    Dear Senator Schumer:

    Shortly after my confirmation hearing before the Senate Judiciary 
Committee, you posed two questions to me in writing. I understand that 
you found my answer to one particular question insufficiently 
responsive, and I apologize for that. With your indulgence, I would 
like to respond more completely and specifically to the question, which 
read as follows:

        The Department of Housing and Urban Development recently 
        eliminated a gun buyback program that was responsible for 
        removing thousands of handguns from impoverished and crime-
        ridden communities across America. HUD eliminated the program 
        not because it was ineffective but because it does not fit 
        within the Department's "core mission". As Assistant Attorney 
        General for the Office of Justice Programs, would you reinstate 
        the gun buy-back program as a DOJ-funded project?

    Senator Schumer, I share your concerns regarding the use of guns to 
victimize residents of the neighborhoods you describe, and I share your 
desire to reduce gun violence throughout America. If confirmed as 
Assistant Attorney General for the Office of Justice Programs, I will 
be eager to work with you to identify and implement initiatives which 
will achieve that goal. I am not familiar with the details of the 
specific gun buy-back program to, which you refer, or with the findings 
of any research which may have been done to analyze its effectiveness 
in removing guns from the hands of criminals, or in reducing gun 
violence generally. However, I would be pleased to examine this 
initiative, as well as others, and to seek to fund such initiatives as 
hold promise for the achievement of these outcomes.
    I hope that this letter will help to clarify my earlier response, 
and I look forward to working with you to prevent future incidents of 
violence committed with firearms.
    Thank you, Senator, for the opportunity to expand on my previous 
response.
            Sincerely,

                                         Deborah J. Daniels


</pre></body></html>
